No. 19-438
IN THE

Supreme Court of the United States
_________________________________

CLEMENTE AVELINO PEREIDA,
v.

Petitioner,

WILLIAM P. BARR, ATTORNEY GENERAL,
Respondent.
_________________________________

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
_________________________________

REPLY BRIEF FOR PETITIONER
_________________________________

David V. Chipman
Raul F. Guerra
MONZÓN, GUERRA &
ASSOCIATES
1133 H Street
Lincoln, NE 68508
Thomas M. Bondy
Benjamin P. Chagnon
ORRICK, HERRINGTON &
SUTCLIFFE LLP
1152 15th Street NW
Washington, DC 20005

Brian P. Goldman
Counsel of Record
Kory DeClark
ORRICK, HERRINGTON &
SUTCLIFFE LLP
405 Howard Street
San Francisco, CA 94105
(415) 773-5700
brian.goldman@orrick.com
E. Joshua Rosenkranz
ORRICK, HERRINGTON &
SUTCLIFFE LLP
51 West 52nd Street
New York, NY 10019

Counsel for Petitioner

1
REPLY BRIEF FOR PETITIONER
1. The government has acquiesced in a grant of
certiorari in this case. The government agrees that
“the courts of appeals are divided” on the question
presented and that the conflict is now “entrenched”
after the en banc Ninth Circuit rejected the government’s position. Br. 14-15; see also id. at 7; Pet. 11-22.
The government also agrees that the “question presented is important to the uniform administration of
the INA and warrants this Court’s resolution.” Br. 14;
Pet. 22-25. And it agrees that this case “provides a
suitable vehicle for resolving that disagreement” because, unlike in other cases, there are no threshold
disputes about whether the modified categorical approach applies; rather, the question presented “was
necessary to the court of appeals’ determination.” Br.
14-15; see id. at 11; Pet. 25-27.
For these reasons alone, the petition should be
granted.
2. The government also argues (Br. 7-12) that the
decision below was correct. There will be time enough
to respond fully to the government’s merits contentions if the Court grants plenary review, but a few of
the government’s more fundamental errors should be
corrected immediately.
a. The government agrees with the basic premises
of our argument: The categorical approach and its
modified variant address a “legal question of what a
conviction necessarily established,” Mellouli v. Lynch,
135 S. Ct. 1980, 1987 (2015). And that analysis requires a “legal” “presum[ption] that the conviction

2
‘rested upon [nothing] more than the least of th[e]
acts’ criminalized.” Gov’t Br. 10; see Pet. 28. But instead of following this reasoning to its natural conclusion, the government argues that the modified
categorical approach includes an initial “step”—using
conviction documents to determine “what crime … a
defendant was convicted of”—that is a factual question with no presumptive answer. Br. 12.
This Court’s cases say the opposite. The modified
categorical inquiry does not start from a blank slate,
such that the first step would be to identify the prong
of the given divisible statute. Instead, as Moncrieffe v.
Holder says, it starts with the presumption that the
conviction rests on the least of the acts criminalized.
569 U.S. 184, 190-91 (2013). That presumption can
then be rebutted using the modified categorical approach, but only if the record of conviction reveals
“which particular offense the noncitizen was convicted of.” Id. at 191; see Pet. 3, 12, 28-29. The presumption holds, however—and a noncitizen meets his
burden—unless “the record of conviction of the predicate offense necessarily establishes” a disqualifying
offense. Moncrieffe, 569 U.S. at 197-98 (emphasis
added). *

The government resists our explanation (Pet. 32) that
Johnson v. United States, 559 U.S. 133, 136-37, 145 (2010), establishes as much. Gov’t Br. 11 n.2. Johnson—the case whose
least-acts-criminalized language Moncrieffe formalized as a presumption, see 569 U.S. at 191—was a modified categorical approach case, and it presumed that a conviction rested on the
most minor prong of a divisible statute precisely when the “absence of records” rendered the “application of the modified categorical approach” inconclusive. 559 U.S. at 136-37, 145. The
*

3
For the same reason, the government is also
wrong to say that the modified categorical approach
involves a distinct factual inquiry that the categorical
approach does not. Descamps specifically rejected the
argument that the modified categorical analysis
uniquely allows for a distinct, “evidence-based” inquiry. 570 U.S. at 266-67. That the inquiry “involves
examining documents” in the conviction record does
not transform it into a factual one, Gov’t Br. 12; the
analysis involves no credibility judgments or reconciling evidence, but only assessing the legal meaning of
an undisputed documentary record.
b. As for the impossible burden the Eighth Circuit’s rule often places on noncitizens seeking humanitarian relief, see Pet. 33-34, the government
embraces the unfairness of its approach, declaring
that “assigning … consequences” is “precisely what a
burden of proof is designed to do,” Br. 12. But that
merely assumes the conclusion that the INA’s evidentiary burden of proof is meant to apply to a narrow
legal inquiry like the categorical approach. The government cites no other context in which establishing
eligibility for important benefits requires proving a
government contends that the portion of Johnson we cite reflects
only “the district court’s analysis, not this Court’s.” Br. 11 n.2
(citing Johnson, 559 U.S. at 136-37). But Moncrieffe adopted precisely that passage. See 569 U.S. at 191. And this Court has expressly recognized that Johnson analyzed a divisible state
statute under the modified categorical approach. Descamps v.
United States, 570 U.S. 254, 263-64 & n.2 (2013). That “Johnson
arose in the criminal sentencing context,” Gov’t Br. 11 n.2, is immaterial because the categorical approach is identical in both
contexts. See, e.g., Esquivel-Quintana v. Sessions, 137 S. Ct.
1562, 1567-68 (2017).

4
negative, using only a narrow range of documents
that the applicant neither creates nor maintains, and
that “in many cases … will be incomplete” or impossible to obtain. Johnson, 559 U.S. at 145. Noncitizens
may not rely on any other reliable evidence—not even
their own testimony—to establish the basis for their
conviction. See Moncrieffe, 569 U.S. at 200-01. That
circumscribed approach makes sense if the analysis is
a formalized, legal inquiry into what a conviction
“necessarily” establishes, but not if it is a factual inquiry requiring the noncitizen to prove the particular
way he violated a state statute years earlier. See id.
(admonishing that the categorical approach precludes
“post hoc investigation into the facts of predicate offenses … in minitrials conducted long after the fact”).
The government also says that Congress sought
to “ensure[] that aliens do not benefit from withholding available evidence.” Br. 12. But any whiff of “withholding available evidence” could be grounds to deny
relief at the discretionary phase of relief proceedings,
when an immigration judge decides if an eligible
noncitizen should be granted relief on the equities of
his case. See Moncrieffe, 569 U.S. at 204. So this imaginary concern does not justify an approach that often requires noncitizens to prove the unprovable.

5
CONCLUSION
The Court should grant the petition for a writ of
certiorari.
Respectfully submitted,

November 25, 2019

Brian P. Goldman
Counsel of Record
ORRICK, HERRINGTON &
SUTCLIFFE LLP
405 Howard Street
San Francisco, CA 94105
(415) 773-5700
brian.goldman@orrick.com

